                          Office of Inspector General
                          Legal Services Corporation




Inspector Genera]
Jeffrey E. Schanz

3333 K Streer, NW. 3rd Floor
Washington, DC 20007~3558
202.295.1660 (p) 202.337.66 16 ([)
www.oig. lsc.gov

          October 9, 2014

          Mr. Raun Rasmussen
          Executive Director
          Legal Service NYC
          40 Worth Street, Suite 606
          New York, NY 10013

          Dear Mr. Rasmussen :

         Enclosed is the Office of Inspector General's (OIG) final report for our audit of Selected
         Internal Controls at Legal Services NYC. The OIG has reviewed your comments on the
         findings and recommendations in the draft report. Your comments are included in the
         final report as Appendix II.

         The OIG considers your actions taken and planned actions responsive to all of our
         recommendations . However Recommendations 5, 6, 7, 8, 9 and 11 are still considered
         open until the OIG is notified in writing that the planned actions have been completed
         and implemented . Recommendations 1, 2, 3, 4 and 10 are considered closed.

         Th e OIG is referring $196 ,387 in questioned costs to LSC Management for their
         determination . These costs involve attorney fees received by Legal Services NYC that
         were not allocated to LSC .

         We thank you and your staff for your cooperation and assistance.

          Sincerely,



         (jJJs~:6-
          Inspector General

          Enclosure

         cc:        Legal SeNices Corporation
                    Jim Sandman , President
                    Lynn Jennings, Vice President for Grants Management


                                                                                     =ILLSC
                                                                                     II    f~,
                                                                                            America', P.. tncr   Equal Ju";",,
 LEGAL SERVICES CORPORATION

OFFICE OF INSPECTOR GENERAL




FINAL REPORT ON SELECTED
    INTERNAL CONTROLS


LEGAL SERVICES NYC
         RNO 233100


       Report No. AU 15-01


          October 2014

         www.oig .lsc.gov
                                                TABLE OF CONTENTS

INTRODUCTION ........... ... .. .......... .. ......... ... ........ .. .... ............. .. ... .... ... ... ...... 1

BACKGROUND ..... .... ... .... ... ........ ... ........ ....... ... .... .... ... .............. .... .... ..... .. .. 1

OBJECTIVE. ...... ........ ..... ..... .................. .. ........... .. ...................................... 2

AUDIT FINDINGS ............. ... ............................... ................. ....................... 3

     Derivative Income ................... ............. ... .. .... .... ........... ... .. .... .... ........ ..... 3
        Recommendation 1 ...... ..... .. ........ ... ......... .. .. ....... .... .......................... 5
        Recommendation 2 ........................ ..... .. .. .. .... ..... .... ......... ...... ........... 5
        Recommendation 3 ...... ............... .. ........... ... ..... .. .... ... ..... .. .............. .. 5

     Disbursements ..... .. .... ....... ..... .......... .... ......... ... .. ...... ... ........... ........ ...... .5
        Recommendation 4 .............. .. ..... ... ..... ......... .... ... ... ... .. ... .................. 7
        Recommendation 5 ...... ............... .............................. ... .. .................. 7
        Recommendation 6 .. .... ...... ... ..... .. .................................................... 7

     Contracts ............ .............................. ... ............ ... .. .... ... ...... .. ..... .. ........... B
       Recommendation 7 ........ .......... ... ..... .... .. .... ...... .... ..... ... ..... .... .... ....... 9
       Recommendation B..................... ... ...... ... ........... .... ... ..... ... .. ...... .. ..... 9

     Cost Allocations Methodology ............. .. .. .. ... ....... ..... ............ ..... ... ......... 9
       Recommendation 9 ..................... .............. ... .. .......... .............. .. ...... 11
       Recommendation 10 ............ .. ....... .. .... .. .. .... .. .................... .. ........... 11

     Management Policies ............... .. .............. ... .. ...................... .. .. ......... ... 11
       Recommendation 11 ...... .. .. .. .. ................ .. ...................... .. ... ........... 12


SUMMARY OF GRANTEE MANAGEMENT COMMENTS ...................... 12

OIG EVALUATION OF GRANTEE MANAGEMENT COMMENTS ......... . 13

APPENDIX 1- SCOPE AND METHODOLOGy ..... .... .................. ......... .. 1-1

APPENDIX 11- GRANTEE MANAGEMENT COMMENTS ................. 11-1
                                  INTRODUCTION

The Legal Services Corporation (LSC) Office of Inspector General (OIG) assessed the
adequacy of selected internal controls in place at Legal Services NYC (LSNYC or
grantee) related to specific grantee operations and oversight.       Audit work was
conducted at the grantee's administrative office in New York, NY; three branch offices
located in the Bronx, Staten Island and Manhattan; and at LSC headquarters in
Washington, DC.

In accordance with the Legal Services Corporation Accounting Guide for LSC
Recipients (2010 Edition) (Accounting Guide) , Chapter 3, an LSC grantee " ... is required
to establish and maintain adequate accounting records and internal control procedures."
The Accounting Guide defines internal control as follows :

      [T]he process put in place, managed and maintained by the
      recipient's board of directors and management, which is designed
      to provide reasonable assurance of achieving the following
      objectives:

      1. safeguarding of assets against unauthorized use or disposition ;
      2. reliability of financial information and reporting; and
      3. compliance with regulations and laws that have a direct and
         material effect on the program .

Chapter 3 of the Accounting Guide further provides that each grantee "must rely ... upon
its own system of internal accounting controls and procedures to address these
concerns" such as preventing defalcations and meeting the complete financial
information needs of its management.

                                   BACKGROUND

LSNYC is a New York based not-for-profit corporation organized for the purpose of
providing legal assistance in noncriminal legal proceedings or matters to indigent
persons in the New York City area. LSNYC is authorized to practice law under Section
495 of the New York Judiciary Law and employs licensed attorneys to provide legal
services to eligible clients. LSNYC received significant funds from the federal LSC as
well as a variety of other sources. LSNYC disburses grant funds received from the LSC
and other funders to its Constituent Corporations (CCs) and oversees fiscal and
compliance responsibilities with respect to all of these entities. LSNYC maintains the
books of account for the CCs (all of which are separate corporations) and makes
payments for substantially all of their expenditures. LSNYC is comprised of
administrative and program units which include :

       Central Administration
       Brooklyn Branch


                                            1
        Brooklyn Family and Defense Project1
        Staten Island Branch
        Legal Support Unit

LSNYC's six CCs 2 include:

        Bedford-Stuyvesant Community Legal Services Corporation
        Brooklyn Legal Services Corporation A 3
        Queens Legal Services Corporation
        South Brooklyn Legal Services Corporation
        Manhattan Legal Services
        Legal Services NYC - Bronx

As part of our audit, the OIG visited offices located in the Bronx, Staten Island and
Manhattan CCs and reviewed specific accounting functions in those offices.

According to the audited financial statements for the grantee's year ended
December 31, 2013, approximately 58 percent of the grantee's total support funding
was provided by three funding sources: LSC, the State of New York and New York City.
LSNYC received $13,085,729 from LSC, $8,819,078 from the State of New York and
$5,413,407 from the city. In addition, the grantee received $6,178,558 from the federal
government (other than LSC) and $13,577,623 from various local and private sources.

                                           OBJECTIVE

The overall objective was to assess the adequacy of selected internal controls in place
at the grantee as the controls related to specific grantee operations and oversight,
including program expenditures and fiscal accountability.       Specifically, the audit
evaluated selected financial and administrative areas and tested the related controls to
ensure that costs were adequately supported and allowed under the LSC Act and LSC
regulations.




1 LSNYC transferred the ownership and operation of the Brooklyn Family Defense Project to Brooklyn
Defender Services ("BDS"), an unrelated New York not-for-profit corporation, pursuant to an agreement,
dated and effective December 1, 2012 between LSNYC and BDS.

2 Under LSNYC's governance structure, services are provided by a system of constituent corporations
and branch offices. The constituent corporations (CCs) are linked to LSNYC through a membership
corporation structure under New York's Not-for-Profit Law. LSNYC, through its Board of Directors, is the
controlling member of the CCs and has powers that include the power to appoint and remove members of
CC Board of Directions, to approve appointment of or remove a Project Director, and to oversee finances
and quality of services. The CCs remain responsible for the delivery of services in their communities.

3In August 2012, Brooklyn Legal Services Corporation A ("Brooklyn A") decided to disassociate from
LSNYC. The disassociation occurred February 15, 2013, pursuant to the by-laws of Brooklyn A.

                                                   2
                                 AUDIT FINDINGS

DERIVATIVE INCOME

Attorneys' Fees

LSNYC did not allocate any of its attorneys' fees income to LSC in FY 2013 according
to DIG's review of the general ledger, financial statements and discussions with the
Controller. According to the December 31 , 2013 audited financial statements, the
grantee received $329,939 in attorney fees in 2013, all of which was recorded in an
unrestricted revenue account. The DIG reviewed a sample of six of the 25 cases
involving attorneys' fees that were included in the general ledger. The revenue for the
six cases totaled $208 ,620. For five of the six cases, LSNYC's internal case
management reports showed that the cases were fully or partially funded by LSC .
Based on the hourly information provided to us in these reports, we calculated that
94 percent of the hours were charged to LSC . As a result, based on the six cases in our
sample, $196,387 should have been allocated to LSC.

LSNYC has written policies and procedures in the accounting manual for recording and
allocating attorneys' fees that do not appear to accurately capture the requirements
contained in LSC's Accounting Guide and 45 CFR §1609.4 (a) . According to the
accounting manual, LSNYC may receive attorneys' fees for damages awarded and/or
statutory benefits . Attorneys' fee revenue is recorded in a general ledger revenue
account during the accounting period in which the fees are actually received . The
accounting manual further provides that such fees are allocated proportionately to the
fund and account assigned to the LSC grant. Attorneys' fees received by LSNYC for
representation supported in whole or in part by various funders are allocated to each
funder in accordance with fund requirements .

Nevertheless, the grantee's written policy on attorneys' fees does not provide that these
fees must be allocated to the LSC fund in the same proportion that the amount of LSC
funds expended bears to the total amount expended by the grantee to support the
representation .

Also, the grantee appeared to have no established practices in place to allocate the
attorneys' fees . All attorneys' fees were allocated to an unrestricted account.

45 CFR §1609.4 (a) states:

      Attorneys' fees received by a recipient for representation supported in
      whole or in part with funds provided by the Corporation shall be allocated
      to the fund in which the recipient's LSC grant is recorded in the same
      proportion that the amount of Corporation funds expended bears to the
      total amount expended by the recipient to support the representation .

                                            3
Properly recording attorneys' fees allows LSC to be allocated its apportioned share of
income, which in turn can be used to provide legal services in accordance with LSC
requirements. According to LSNYC's Controller, attorneys' fees were not allocated
because they were not using the case management system to its full capability. She
stated that the current case management system provides more clarity and
transparency in how the attorneys are charging their time. However, grantee
management still did not allocate to LSC any of this recorded revenue.

Since attorneys' fees tested and documented in our sample were not allocated to LSC
in accordance with the meaning of 45 CFR §1609.4, the OIG is questioning $196,387 of
those attorneys' fees. The OIG will refer the questioned costs to LSC management for
review and action.

Interest Income

LSNYC received $15,491 of interest income according to the grantee's December 31,
2013 audited financial statements. All of the income was recorded to an unrestricted
revenue account and none was allocated to LSC. The grantee has no written
methodology for allocating interest income in the accounting manual and no practices
are in place. The audited financial statements showed that LSC revenue accounts for
approximately 28 percent of LSNYC's total revenue, so roughly $4,337 of the interest
income could have been allocated to LSC if based on percentage of revenues received.

The LSC Accounting Guide provides that LSC considers derivative income as any
additional income derived from an LSC grant, such as interest income, rent or the like,
or that portion of any reimbursement or recovery of direct payments to attorneys,
proceeds from the sale of assets, or other compensation or income attributable to any
LSC grant. LSC derivative income must be reported in the same class of net assets that
includes the LSC grant.

According to LSNYC management, there is not much interest income; therefore they do
not split it among the grants. Properly recording any interest income ensures that LSC is
apportioned its fair share of income to be used to provide legal services to LSC eligible
clients.

Written Policies

Our review of the accounting manual revealed that policies and procedures for
derivative income were not documented. The grantee received derivative income in the
form of rent, interest, gains (losses) on disposal of property and attorneys' fees. The
grantee has adequate documented policies and procedures for recording gains (losses)
on disposal of property; however, the grantee does not have documented policies and
procedures or practices in place for recording and allocating rental and interest income
to the various funding sources. According to LSNYC management, they were unsure of



                                            4
what was actually considered derivative income, and consequently did not prepare an
overall written policy in this area.

45 CFR §1630.12 states:

      Derivative income resulting from an activity supported in whole or in part
      with funds provided by the Corporation shall be allocated to the fund in
      which the recipient's LSC grant is recorded in the same proportion that the
      amount of Corporation funds expended bears to the total amount
      expended by the recipient to support the activity.

Without detailed written procedures, there could be a lack of transparency and
consistency in the application of the methodology especially in cases of staff turnover.
Approved documented policies and procedures represent management's intentions on
how processes are to be handled and also serve as a method to document the design
of controls, communicate the controls to the staff and help the grantee ensure that
proper controls are followed.

Recommendations: The Executive Director should:

   Recommendation 1: ensure that all derivative income is properly accounted for and
   allocated to the related funding sources.

   Recommendation 2: update and revise the written policies and procedures for
   attorneys' fees to mirror LSC requirements.

   Recommendation 3: formalize written policies for all derivative income including
   rental and interest income. The policies should establish a methodology so that
   such income is properly accounted for and allocated to the related funding sources.

DISBURSEMENTS

Unallowable Costs

The OIG found 12 transactions totaling $2,397.50 paid to the New York City Bar
Association for unallowable membership dues. 45 CFR §1627.4 provides that grantees
may not use LSC funds to pay dues to any private or nonprofit organization other than
dues mandated as a requirement of practicing a profession by a governmental
organization. These dues were not mandated by a governmental organization so that
the attorneys could engage in their profession. Six of the transactions were paid with
LSC funds totaling $1,320 and the remaining $1,077.50 were paid with other donor
funds. The grantee does not have a policy in the accounting manual on the payment of
membership dues outlining LSC restrictions. Management explained there was a lack
of understanding of LSC regulations that prohibits grantees from allocating the cost of
membership dues paid to bar associations. The determination that costs are allowable
helps to ensure that grantees use funds only for authorized purposes.


                                           5
Purchase Orders/Requisitions

From the sample of 147 disbursement checks reviewed, we noted nine checks, totaling
$27,994.36, for which LSNYC created the purchase order and/or the purchase
requisition after receipt of an invoice. The total amount charged to LSC for these checks
was $6,337.36.

For four of the checks, totaling $12,807, both the dates of the purchase requisition and
purchase order were after the date of the invoice, indicating that LSNYC made the
purchase before getting documented prior approval of that purchase. This practice did
not adhere to the purchasing policies outlined in the accounting manual , which states
that all purchase requisitions must be approved by designated individuals and purchase
orders must be approved by authorized individuals before a purchase can be made.
None of these checks were charged to LSC .

For the remaining five checks, the related purchase orders were also prepared after
LSNYC received the vendor invoice. The total of these checks was $15 ,187.36, of
which $6 ,337.36 was charged to LSC .

Section 3-5.4, Cash Disbursement, Managing Purchases, of the Accounting Guide
states that approvals should be required at an appropriate level of management before
a commitment of resources is made. It also states that criteria for purchases should be
documented along with appropriate procedures. Section 5030 of the accounting manual
states that all purchase requisitions must be approved by designated individuals and
that all purchase orders must be approved by authorized individuals before a purchase
can be made.

LSNYC staff explained purchase orders may be created after receipt of an invoice
because LSNYC maintains a central accounting department while purchasing often
takes place in field offices. The field offices do not always make a purchase requisition
or purchase order prior to securing goods and services . As such , in order to properly
document the purchase, purchase orders are completed after the fact.

Adhering to a purchase order system helps ensure that disbursements are appropriately
approved prior to purchases being made adequately supported , and that grantee funds
are used only for their intended purpose.

Master Vendor List

Controls over master vendor list maintenance are lacking and need to be strengthened .
Employees with accounts payable duties , wh ich include initiating and processing
payments, have primary responsibility for creating new vendors and the ability to edit
vendor information in the accounting information system. Those employees with access
can create and change vendor information without prior approval from manag ement at
the central office. This could result in unauthorized vendors being set up to receive
payments or address changes resulting in payments sent to incorrect locations.


                                            6
Approving vendors appropriately and controlling access to the vendor master list helps
to ensure that only authorized and approved vendors are paid .

Additionally, LSNYC does not have written polices or a formalized process in place for
establishing, vetting and approving new vendors. New vendors are created in the
system normally by the Accounting Associate/Purchasing Agent or the Accounts
Payable Specialist upon receipt of a Purchase Requisition, Purchase Order or Check
Request from a field office. The Controller stated that management at field offices,
where most purchases are initiated, is authorized to establish and approve relationships
with new vendors. The Central Office, where payments are processed, is normally not
involved in the approval process for establishing new vendors. The Central Office relies
on the determination of the field offices regarding whether potential new vendors are
legitimate and reputable. Prior to setting up new vendors in the accounting system or
generating payment, the Central Office does not require that the field offices provide
documentation substantiating the approval process for new vendors. Establishing a
formal vendor approval process, including securing business references and
management approval of new vendors, would help ensure that LSNYC engages in
business with legitimate and reputable entities.

Section 3-4, Internal Control Structure, Segregation of Duties, of the Accounting Guide
states accounting duties should be segregated to ensure that no individual
simultaneously has both the physical control and the record keeping responsibility for
any asset, including, but not limited to , cash, client deposits, supplies and property.
Duties must be segregated so that no individual can initiate, execute, and record a
transaction without a second independent individual being involved in the process.

Recommendations: The Executive Director should :

   Recommendation 4: abide by LSC regulations and ensure that LSNYC does not use
   LSC funds to pay for unallowable membership dues .

   Recommendation 5: adhere to the grantee's established policies for purchasing and
   accounts payable and ensure that purchase requisitions and purchase orders are
   received, reviewed and approved prior to the purchase of goods and services. This
   should include ensuring that the field offices follow the grantee's established policy.

   Recommendation 6: establish written policies for securing and approving new
   vendors . These policies should outline procedures for setting up new vendors in the
   accounting information system to ensure that only employees independent of the
   accounts payable function are allowed to create new vendors and edit vendor
   information .




                                            7
CONTRACTS

The grantee's written contracting policies and procedures are in conformity with the
Fundamental Criteria. However, LSNYC could not provide evidence of competitive
bidding or documentation substantiating single source contracting for two of the five
contracts in our test sample. The first contract was to provide clinical supervision of
social workers employed by LSNYC with a maximum contract value of $45,000. The
second contract was to provide technical consulting services in the amount of $13,000.

Based on our sample, the grantee's current practices involving soliciting and awarding
contracts were not always in accordance with their contracting policy or LSC's
Fundamental Criteria. According to LSNYC management and LSNYC contracting
policies and procedures, both contracts should have been competitively bid. For both of
the contracts, the purchasing agent was on vacation at the time the purchase orders
were created and the staff that filled in did not require evidence of competitive bidding
before processing the purchase order. Management stated that the vendors both have a
long-standing relationship with LSNYC. The grantee also did not prepare a written sole
source justification substantiating the single source purchase as required in LSNYC
contracting policy.

The accounting manual states the Controller and Accounting Associate should review
all requests for payment submitted by the organization. Where a good or service is
unique, highly specialized, available from only one vendor or a vendor is uniquely
qualified to provide a good or service; fewer than three quotations are acceptable
provided that the selection is accompanied by a written justification for the conclusion
that the good or service meets one or more such criteria and has been approved by
persons consistent with the threshold guidelines.

The Accounting Guide, under Chapter 3-5.16, states the process used for each contract
action should be fully documented and the documentation maintained in a central file.
Any deviation from the approved contracting process should be fully documented,
approved, and maintained in the contract file. In addition, the statement of work should
be sufficiently detailed so that contract deliverables can be identified and monitored to
ensure that the deliverables are completed . The type and dollar value of contracts that
require competition should be included in the policies of the grantee. Documents to
support competition should be retained and kept with contract files.

We also found that LSNYC did not adhere to its contracting policies outlined in the
accounting manual with respect to obtaining business references and conflict of interest
disclosures for consultants. For three of the five contracts tested, LSC OIG found that
LSNYC did not obtain the two business references required for each consultant
contract. LSNYC also did not require the contractors to complete a Conflict of Interest
disclosure. Two were technical consulting contracts for $62,000 and $13,000; the other
was supervision of social workers employed by LSNYC for $45,000.




                                            8
According to LSNYC management and staff, these two policies are not ones by which
LSNYC routinely abides. The accounting manual was revised in December 2013 and
these policies were likely rolled over from the previous version even though they do not
reflect LSNYC's current practices. Prior to recent revision, the accounting manual had
not been updated for more than nine years.

By not subjecting these contracts to competitive bidding and documenting the
justification, it's not clear whether the grantee received the best price and service
available for the money spent.

Recommendations: The Executive Director should:

      Recommendation 7: ensure that the grantee adheres to its written policies and
      procedures for contracting, and removes any obsolete policies no longer
      followed.

      Recommendation 8: ensure that employees in the finance department are
      adequately cross-trained to handle the job duties and responsibilities of the
      different positions within that department.

COST ALLOCATIONS METHODOLOGY

LSNYC receives over 400 different grants and contracts annually. Grants are generally
in the form of city-wide grants or local grants. Journal entries are used to move costs
between grants when necessary. The OIG interviewed staff to obtain an understanding
of the cost allocation process and performed test work based on the practices described
during these interviews. According to LSNYC's cost allocation policy, all program costs
are deemed direct costs. Central Administrative Office (CA) and a portion of Legal
Support Unit (support and development of legal staff) expenses are deemed indirect
costs that are distributed over all programs. LSNYC has an approved indirect cost rate
of 11.2 percent of total costs, if allowed by the specific grant. The 11.2 percent is taken
from each grant and allocated to the CA as indirect cost revenue.

We randomly selected 11 grants and contracts to determine that the indirect costs were
correctly allocated as CA office revenue. We found various methods are being used by
the grant accountants to record indirect cosUCA office revenue. The grantee was not
using a consistent methodology in recording the indirect costs/CA office revenues. For
the most part, the amounts were being allocated in accordance with the established
percentage, however, there were some minor variances noted in our recalculations. We
discussed the variances with LSNYC staff and they explained that these variances
would be corrected through journal entries at the conclusion of the grant or contract
year. As part of our audit, we tested journal entries made throughout the year and at
year end. We reviewed support for the entries, their purpose and whether there was
proper approval. We found no problems and the entries appeared reasonable.




                                             9
All city grant revenue and contract revenue are distributed across the programs
(locations) based on the census poverty population data. Local grant revenues are
recorded to the program specified in the grant.

We reviewed a sample of 5 of the approximately 1990 journal entries prepared by the
grantee during the year and at year-end, and all seemed properly prepared, with a
specific justified purpose and adequately supported. Generally, the purpose of these
entries was to move funds between grants, record indirect cost revenue and as a result
of auditor year-end adjustments.

We also tested 5 grants/contracts that were not charged indirect costs. We found that
those grants/contracts did not allow indirect costs to be charged.

Based on our test work performed , LSNYC's methodologies for allocating costs were in
accordance with the Accounting Guide; however the practices were not fully
documented in the accounting manual.

Written Policies and Procedures

The grantee has a written cost allocation policy in the accounting manual; however, that
policy does not fully and adequately describe the methodology used in practice. Based
on our review and testing of the process, some of the practices in place that were not
detailed in the accounting manual include :

   •   the disclosure that the Department of Justice approves an indirect cost rate
       proposal ;
   •   the use of the census poverty population to distribute city-wide grants and
       contracts;
   •    a requirement on how grant accountants track awards, how they monitor those
       award expenses and how they must obtain an understanding of the budget and
       allowable expenses;
   •   the accounting for fundraising revenue and expenses;
   •   the various different methods used by the grant accountants to record indirect
       costs; and
   •   the purpose, processing and approval of reclassification entries used to move
       expenditures between grants.

As part of an internal control structure, each grantee must develop a written accounting
manual that describes the specific procedures to be followed by the grantee in
complying with the Fundamental Criteria contained in the LSC Accounting Guide, which
require that financial controls be established to safeguard program resources . The
Accounting Guide also states the allocation formula should be adequately documented
in writing with sufficient detail for the auditor, LSC OIG , GAO and others, to easily
understand, follow and test the formula.



                                           10
Without detailed written procedures, there could be a lack of transparency and
consistency in the application of the methodology especially in cases of staff turnover.
Approved documented policies and procedures represent management's intentions on
how processes are to be handled and also serve as a method to document the design
of controls, communicate the controls to the staff and help the grantee ensure that
proper controls are followed.

City Wide Grant Revenue Distribution

LSNYC management used the wrong census data (2010 census) to allocate city wide
grant revenue to its different programs. During our audit, we attempted to recalculate
the Census poverty population distributions used to distribute all city-wide grants and
contracts across the LSNYC programs (Manhattan, Bronx, etc.). Although we believe
that its process is reasonable, we found that the allocation percentages being used by
the grantee were incorrect. When we inquired further, we found that the grantee was
using 2010 census data instead of 2011.

LSNYC management explained that all city grants and contract revenues are distributed
across the programs based on the Census poverty population. In 2013, LSNYC was
supposed to calculate the distributions based on the new 2011 Census information. The
poverty populations numbers are used to ensure funding across the various programs
are reasonable. Since LSNYC management determined that using current Census
population data was an equitable way to distribute city-wide grant revenue, by not using
the proper Census poverty populations, city grants and contract revenue would not be
distributed in accordance with management's intentions.

The Director of Grant Accounting informed us that because the wrong census
distribution percentages were being used during the year (2013), an entry would have to
be prepared at year-end to correct the program distributions. We reviewed the LSC
revenue entry and determined that the program distributions were adjusted and based
on the correct census data.

Recommendations: The Executive Director should:

   Recommendation 9: ensure that all cost allocation processes as practiced by the
   grantee are fully documented in writing in the accounting manual.

   Recommendation 10: ensure that both a process and controls are in place for
   accounting staff to obtain and use the correct census information during the year so
   that city wide revenue is being properly allocated to the various programs.


MANAGEMENT POLICIES

The grantee did not have a written employee Code of Conduct or a Whistleblower
Policy in place for the period under review. Grantee management explained that the


                                           11
staff is very comfortable with going to executive management to discuss and report
problems. In addition, the grantee stated that they were close to completing a draft
version of the employee Whistleblower Policy. As explained by the grantee, this had
come about as a result of recent state legislation in New York requiring not-for-profits to
have a Whistleblower Policy in place.

Organizations should produce a clear statement of management philosophy to include
standards that are consistent with management's ethics policy. Organizations should
establish and communicate a whistleblower protection policy to allow employees to
come forward and report misconduct in the workplace. This policy should allow
employees to confidentially report or seek guidance regarding actual or potential
criminal conduct by others within the organization without fear of retaliation.

Without an employee Code of Conduct or Whistleblowers Policy in place (with annual
staff refreshers) not all employees may be aware of such practices or feel sufficiently
comfortable that an ethical environment exists encouraging and/or requiring such
behavior.

Recommendation 11: The Executive Director, together with the Board of Directors,
should formally adopt a Code of Conduct or ethics policy, along with a Whistleblower
Policy. Both these policies should include initial training and annual staff refreshers. The
written Code of Conduct should be given to every employee who shall be required to
read and sign it.


          SUMMARY OF GRANTEE MANAGEMENT COMMENTS

LSNYC management agreed with all of the findings identified in the draft report and also
agreed with all 11 recommendations. The findings and recommendations included
derivative income, disbursements, contracts, cost allocation and management policies.
The grantee stated that they have created policies and procedures for recording and
reporting derivative income. They stated that derivative income will be reviewed and
recorded semiannually and fully reported based on supporting case data retrieved from
their case management system. Also, accounting staff have now been trained to
identify, record and report derivative income in accordance with LSC requirements. The
grantee will provide continuous training and monitoring to the finance department to
ensure compliance with LSC requirements.

With respect to disbursements, grantee management stated that periodic reviews of the
general ledger will be performed by the Controller to find unallowable costs, including
membership dues. The finance staff has been instructed and trained to be more
proactive in finding unallowable costs such as membership dues and they will be
provided with continuous communication and training to ensure compliance with LSC
regulations.   All relevant staff will also be provided training on the Purchase
Order/Requisition process, focusing on communication and clarification of the steps


                                             12
required in this process . Finally, grantee management will establish written policies and
procedures for securing and approving new vendors by the end of 2014.

To address the recommendations related to contracting , grantee management stated
that they will create a checklist to be used by the end of 2014 to ensure contracts are
supported by evidence of competitive bidding or documentation substantiating a single
source status. Obsolete policies and procedures will be removed from the accounting
manual and staff responsibilities in the finance department will be reviewed to ensure
there is adequate cross training in place.

The key elements of the cost allocation methodology, as approved by the grantee's
cognizant agency, will be added to their accounting manual in 2014. Communication
between the Budget Director and Grant Accounting personnel will be enhanced to
ensure census information is current and complete. Continuous communication and
training will be provided to the finance department to ensure compliance with LSC
regulations .

LSNYC adopted a whistleblowers policy and a conflicts of interest policy in June of
2014 . A formal code of conduct or ethics policy will be adopted, reviewed and approved
by the grantee's board of directors in 2015.


     OIG EVALUATION OF GRANTEE MANAGEMENT COMMENTS

The grantee agreed with all of the findings and recommendations in the draft report.
They have either initiated or are planning to take corrective actions in response to the
OIG's draft report.

The grantee's actions taken and planned were responsive to Recommendations 1, 2
and 3 with respect to derivative income and the DIG considers these recommendations
closed . However, the DIG will still question $196 ,387 in attorney fees as stated in the
draft report and refer the questioned costs to LSC management for review and action .

The DIG considers the grantee's action taken and planned actions responsive to
Recommendations 4, 5 and 6. As such, Recommendation 4 is considered closed.
However, Recommendations 5 and 6 will remain open until the grantee notifies the DIG
in writing that training on the Purchase Order/Requisition process has been completed
and that written policies on securing and approving new vendors have been completed
and included in the accounting manual.

With respect to contracting the grantee's planned actions are fully responsive to
Recommendations 7 and 8. However, those recommendations are considered open
until the DIG receives written notification that the contracting checklist has been
created , the obsolete policies and procedures have been removed from the accounting
manual and a review of staff responsibilities for possible cross training has occurred and
any adjustments have taken place.

                                            13
The grantee's actions taken and planned based on Recommendations 9 and 10 related
to cost allocation are fully responsive . However, the OIG considers recommendation 9
open until the OIG is notified in writing that the key elements of the cost allocation
methodology have been approved by the grantee's board of directors and included in
the accounting manual. Recommendation 10 is considered closed .

The action taken and planned action by the grantee are fully responsive to the OIG's
Recommendation 11 . However, the recommendation will remain open until the code of
conduct or ethics policy has been adopted and approved by the grantee's board of
directors in 2015 and the OIG has been notified in writing.




                                          14
                                                                         APPENDIX I

                          SCOPE AND METHODOLOGY
To accomplish the audit objective, the OIG identified, reviewed, evaluated and tested
internal controls related to the following activities:

   •   Salary Advances,
   •   Cash Disbursernents,
   •   Contracting,
   •   Credit cards,
   •   Property and Equipment,
   •   Internal Management Reporting and Budgeting,
   •   Derivative income,
   •   Client trust funds, and
   •   Cost Allocation.

To obtain an understanding of the internal controls over the areas reviewed; grantee
policies and procedures were reviewed including manuals, guidelines, memoranda and
directives, setting forth current grantee practices . Grantee officials were interviewed to
obtain an understanding of the internal control framework and management and staff
were interviewed as to their knowledge and understanding of the processes in place.
To review and evaluate internal controls, the grantee's internal control system and
processes were compared to the guidelines in the Fundamental Criteria of an
Accounting and Financial Reporling System (Fundamental Criteria) contained in the
LSC Accounting Guide. This review was limited in scope and was not sufficient for
expressing an opinion on the entire system of grantee internal controls over financial
operations.

We assessed the reliability of computer generated data provided by the grantee by
reviewing source documentation for the entries selected for review . We determined that
the data were sufficiently reliable for the purposes of this report.

To test for the appropriateness of expenditures and the existence of adequate
supporting documentation, disbursements from a judgmentally selected sample of
employee and vendor files were reviewed . The sample consisted of 147 disbursements
totaling $383,847.95. The sample represented approximately 2.9 percent of the
$13,445,108 .59 disbursed for expenses other than payroll during the period January 1,
2013 to December 19, 2013 .

To assess the appropriateness of expenditures, we reviewed invoices, vendor lists and
traced the expenditures to the general ledger.        The appropriateness of those
expenditures was evaluated on the basis of the grant agreements, applicable laws and
regulations and LSC policy guidance.


                                           I- 1
To evaluate and test internal controls over the salary advances, contracting, property
and equipment, internal management reporting and budgeting and client trust funds;
we interviewed appropriate program personnel, examined related policies and
procedures and selected specific transactions to review for adequacy.

To evaluate the adequacy of the cost allocation process, we discussed the cost
allocation process for 2013 with grantee management and requested for review the
grantee's written cost allocation policies and procedures as required by the LSC
Accounting Guide. We tested the cost allocation amounts and reviewed the related
reclassification entries for 2013 using the information provided by the grantee.

Controls over derivative income were reviewed by examining current grantee practices
and reviewing the written policies contained in the grantee's Accounting Manual. To
evaluate controls over client trust fund accounting, we interviewed appropriate program
personnel , examined related policies and procedures and performed recalculations of
some revenue accounts.

The initial on-site fieldwork was conducted from January 13 through 17,2014. Due to
weather and scheduling considerations, the OIG could not return until June 2 through 6,
2014 to complete the audit. Our work was conducted at the grantee's central
administrative office in New York, NY; three branch offices located in the Bronx, Staten
Island, and Manhattan and at LSC headquarters in Washington, DC. Documents
reviewed pertained to the period January 1, 2013 through December 31,2013.

This audit was conducted in accordance with generally accepted government auditing
standards. Those standards require that the audit be planned and performed to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and
conclusions based on the audit objectives. The OIG believes that the evidence obtained
provides a reasonable basis for the findings and conclusions based on the audit
objectives.




                                          1-2
                                                                                            APPENDIX II




September 29,2014

Mr. Anthony M. Ramirez
Office of the Inspector General
Legal Services Corporation
3333 K Street, NW, 3,d Floor
Washington, D.C. 20007-3522

Dear Mr. Ramirez:

Thank you for the opportunity to review the draft report on the results of your audit on Selected Internal
Controls at our organization. Our comments are attached.

If you have any questions or need additional information, please contact me at 646-442-3589 or Betty
Caines, Controller at 646-442-3632. Again, thank you for bringing the identified matters to our
attention.

Regards,

 ,
 ) L. •


Genia Wright
Chief Operating Officer

Enclosure




                                                   Legal Services NYC
                                      40 Worth Street, Suite 606, New York, NY 10013
                          Phone : 645-442-3600 Fax: 646-442-3601 www.LegaIServicesNYC.org
                                         Raun J. Rasmussen, Executive Director
                                              Michael D. Young, Board Chair
                                                                                                   i1l!. LSC
Recommendations ], 2 and 3 - The Executive Director should ensure that all derivative income is
properly accountedfor and allocated to the relatedfunding sources.

Update and revise the written policies and procedures for attorney's fees to mirror LSC requirements.

Formalize written policies for all derivative income including rental and interest income. The Policies
should establish a methodology so that such income is properly accounted for and allocated to the
related funding sources.

       Grantee Management Comment
          • Legal Services NYC has created policies and procedures related to the recording and
              reporting of derivative income, and included those policies and procedures in the
              Accounting Manual.

           •   Derivative income will be reviewed and recorded semiannually and fully reported based
               on supporting case data as retrieved from our case management system, Legal Server.

           •   Appropriate accounting staff have been trained on the correct procedures to identify,
               record and report derivative income in accordance with LSC requirements.

           •   Continuous training and monitoring will be provided to the finance department to ensure
               compliance with LSC requirements.


Recommendations 4, 5 and 6 - The Executive Director should abide by LSC regulations and ensure that
LSNYC does not use LSC funds to pay for unallowable membership dues

Adhere [0 the grantee's established policies for purchasing and accounts payable and ensure that
purchase requisitions and purchase orders are received, reviewed and approved prior to the purchase
ofgoods and services. This should include ensuring that the field offices follow the grantee's established
policy.

Establish written policies for securing and approving new vendors. These policies should outline
procedures for setting up new vendors in the accounting information system to ensure that only
employees independent of the accounts payable function are allowed to create new vendors and edit
vendor information.

       Grantee Management Comment
          • Periodic review of the general ledger performed by the Controller will include a more
              extensive review as related to unallowable costs, including membership dues.

           •   Finance staff have been instructed and trained to provide a more proactive review for
               unallowable costs such as membership dues , Continuous communication and training
               will provided to the Finance Department to ensure compliance with LSC regulations

           •   Before the end of2014, LSNYC will provide training on the Purchase Order/Requisition
               process to all relevant staff. Training will focus on communication and clarification of the
               sequence of steps as required in this area to ensure the organization is in compliance with
               its policies related to purchasing and accounts payable.
           •   LSNYC will establish written policies and procedures for securing and approving new
               vendors by year end 2014. Accounting manual will be updated to include all enhanced
               procedures and training will be provided for all relevant staff.

Recommendations 7and 8 ~ The Executive Director should ensure that the grantee adheres to its written
policies and procedures for contracting and removes any obsolete policies no longer followed.

Ensure that employees in the finance department are adequately cross-trained to handle the job duties
and responsibilities of the different positions within the department.

           •   To ensure contracts are supported by evidence of competitive bidding and lor
               documentation substantiating a single source status, a checklist will be created and in-use
               by the end of2014. The checklist will be included in the accounting manual and require
               the signature of the Controller and Accounting Associate documenting all steps and sign
               off as steps are completed.

           •   Obsolete policies and procedures will be removed from the Accounting Manual by the
               end of2014.

           •   During 2014, staff responsibilities in the Finance department will be reviewed to ensure
               adequate cross-training is in place. Any required adjustments and training will take place
               in2015 .

Recommendations 9 and 10 ~ The Executive Director should ensure that all cost allocation processes as
practiced by the grantee are fully documented in writing in the accounting manual.

Ensure that both a process and controls are in place jor accounting staff to obtain and use the correct
census information during the year so that city wide revenue is being properly allocated to the various
programs.

           •   Key elements ofLSNYC's cost allocation methodology as submitted and approved by
               our cognizant agency will be added into our accounting manual in 2014.

           •   Ongoing communication between the Budget Director and Grant Accounting will be
               enhanced to ensure census information as followed is current and complete.

           •   Continuous communication and training will provided to the finance department to
               ensure compliance with LSC regulations.

Recommendation 11 ~ The Executive Director should formally adopt a Code of Conduct or ethics
policy.
        • LSNYC adopted Whistleblower and Conflicts of Interest Policies in June of2014.

           •   A Formal Code of Conduct or ethics policy will be adopted, reviewed, and approved by
               the board in 2015.
